Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Beneficiaries With Additional
      Medical Insurance in 1997




                    JUNE GIBBS BROWN
                     Inspector General

                         JULY1998
                       OEI-04-97-00031
                         OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       ON                                                               RTERS

Betty Apt, Project Leader 
                             Wynethea Walker, Program Specialist
Jason Stanfield, Contractor 
                           Linda Moscoe, Technical Support
Joe Townsel, Program Analyst 
                          Barbara Tedesco, Statistician
Paula Bowker, Program Analyst 

Greg Jones, Program Analyst 

Janet Miller, Program Analyst 





        To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7743
         Reports are also available on the World Wide Web at our home page address:

                                 http:flwww.dhhs.govlprogorg/oei
                                                                                                               PAGE 

EXECUTIVE     SUMMARY 



INTRODUCTION        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l


FINDINGS

     Most Beneficiaries Have Additional             Insurance       ..... .... ..... .... .......2

     Most Beneficiaries Are Satisfied with Insurance . . . . . . . . . . . . . . . . . . . . . . . . . 3


APPENDICES

     Beneficiary Responses          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A- 1

     Confidence Intervals . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B- 1
PURPOSE

To determine how many beneficiaries have medical insurance that supplements Medicare, and
if they are satisfied with the insurance.

BACKGROUND

Medicare is a Federal health insurance program for individuals age 65 and older, and for
certain categories of disabled people. In Calendar Year 1997, Medicare served over 38 million
people, known as beneficiaries, and paid benefits of approximately $211 billion.’

During our 1997 survey of Medicare beneficiary satisfaction, we asked 977 beneficiaries about
their satisfaction with insurance that supplements their Medicare coverage. Several people in
the Health Care Financing Administration expressed an interest in this subject when we
conducted our 1995 beneficiary satisfaction survey, and suggested questions for us to include.
We kept those questions in our 1997 survey .

In July 1997, we mailed a questionnaire to 1269 randomly-selected Medicare beneficiaries for
whom Part B claims had been filed in Calendar Year 1996. We excluded from our sample
beneficiaries who were enrolled in an HMO. A total of 977 beneficiaries returned completed
questionnaires, for a response rate of 77 percent.

We compared responses to our 1995 and 1997 surveys, and determined statistically significant
differences through use of a t-test.



We conducted this inspection in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




           ‘Health Care Financing Administration, United States Department of Health and Human Services, HCEA
Statistics, October 1997.


                                                       1
EIGHTY-SIX       PERCENT OF BENEFICIARIES                 REPORT THEY HAVE MEDICAL
INSURANCE        IN ADDITION TO MEDICARE

In 1997, 86 percent of the beneficiaries said they have medical insurance coverage in addition
to Medicare. This is about the same as in 1995, when 84 percent said they had other
insurance coverage.

Table 1 shows the types of insurance Medicare beneficiaries said they have. The percentages
in 1997 are about the same as in 1995 except for Medigap insurance, i.e., insurance obtained
by Medicare beneficiaries directly from private sources. The increase in the percent of
beneficiaries who had private Medigap policies from 1995 to 1997 was statistically significant.

                                             Table 1 

                    Types of Medical Insurance Medicare Beneficiaries            Have 





         Insurance Through Current or Former Employer
                 Current Employer
                 Former Employer

         Private Medicare Supplemental (Medigap)

         Medicaid

         Other




 ‘Somebeneficiaries said they have more than one type of insurance. 

 ‘In 1995, we combined the question about insurance through current andformer employment. 

 ‘The increase in the number of beneficiaries with Medigap insurance is statistically significant. 

 ‘Although the number of beneficiaries with Medicaid decreased 3 percent, the decrease is not 

 statistically significant. 





                                                     2

EIGHTY-EIGHT   PERCENT         OF BENEFICIARIES        ARE SATISFIED                  WITH   THEIR
ADDITIONAL   INSURANCE

As shown in Figure 1, 88 percent of beneficiaries who have insurance policies that supplement
Medicare said they are satisfied with them. Only 6 percent are dissatisfied.

                                           Figure 1


                         Beneficiary Satisfaction with
                        Supplemental Health Insurance
                              q   35%
                                                          . Very Satisfied 53%

                                                          q Generally Satisfied 35%


                                                          . 	 Neither Satisfied nor
                                                              Dissatisfied 6%
                                                          q Generally Dissatisfied 4%


                                                          q Very Dissatisfied 2%




              Figure 1 represents the responses of beneficiaries who have either
              Medigap or insurance through former or current employers.

Table 2 shows that satisfaction with insurance that supplements Medicare has not changed
since 1995.

                                           Table 2
                 Satisfaction with Insurance That Supplements Medicare
                                  APPENDIX              A
                  RESPONSES TO 1997 SURVEY OF BENEFICIARIES


Question                                        Number of Responses



1.     What types of medical insurance do you or your spouse have in addition to
       Medicare?

       (Check all that apply.)

       (N = 907 - Number Responding to Question)

       I do not have additional
        insurance coverage                             127

       Medicaid (or other State or
       county medical assistance
       program)                                        85

       Health insurance through you or
       your spouse’s current employer                  58

       Health insurance through you or
       your spouse’s former employer                   321

       Private Medicare supplement
       (Medigap)                                       347

       Other                                             7

       Not Answering: 70




                                          A-l
Question                                          Number of Responses



2.     How satisfied are you with your private Medicare supplemental    insurance?

       (Check one.)

       (N = 504 - Number Who Had Medigap or Insurance Through Current         or Previous
       Employment and Responded to Question)


      Very Satisfied                                    268
      Generally Satisfied                               178
      Neither Satisfied
       nor Dissatisfied                                  30
      Generally Dissatisfied                             20
      Very Dissatisfied                                   8

      Not Answering: 72




                                          A-2 

                                 APPENDIX                   B
                                CONFIDENCE         INTERVALS

FINDING     #l 	 Eighty-six percent of beneficiaries report they have medical coverage in
                 addition to Medicare.

                                              Estimate          Boundaries for the 95%
                Description
                                                                 Confidence Intervals
                    1997

 Beneficiaries with Additional Coverage:           86%                 +I- 2.3%

 Insurance through Current or Former
 Employer                                          41%                 +I- 3.2%
       Current Employer                             6%                 +/- 1.5%
       Former Employer                             35%                 +/- 3.1%

 Private Supplemental (Medigap)                    38%                 +I- 3.2%

 Medicaid                                          9%                  +/- 1.9%

  Other                                            1%                  +/- .6%

 Beneficiaries with No Added Coverage              16%                 +I- 2.3%




 Beneficiaries with Additional Coverage:           84%                 +I- 2.5%

 Insurance through Current or Former
 Employer                                          42%                 +I- 3.4%

 Private Supplemental (Medigap)                    32%                 +I- 3.2%

 Medicaid                                          12%                 +/- 2.3%

  Other                                            1%                   +I- .7

 Beneficiaries with No Added Coverage              16%                 +/- 2.5%




                                             B-l
FINDING   #2 Eighty-eight     percent of beneficiaries are satisfied with additional   coverage.



                Description                     Estimate           Boundaries for 95%
                                                                   Confidence Interval


Beneficiaries satisfied with additional 

medical coverage.                                  88%                    +/- 2.8% 





                                               B-2 

